APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:

Court of appeals opinion,
March 9, 2020................................................... 1a
District court opinion,
March 11, 2018 .............................................. 34a
District court opinion,
November 3, 2017 ......................................... 46a
Court of appeals order denying rehearing,
April 24, 2020 ................................................. 56a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-35923

Jillian MCADORY, Plaintiff-Appellant,
v.
M.N.S. & ASSOCIATES, LLC,
foreign limited liability company, Defendant,
and
DNF ASSOCIATES, LLC, foreign limited liability company, Defendant-Appellee.

Argued and Submitted October 24, 2019,
Portland, Oregon
Filed: March 9, 2020
Before: FARRIS, BEA, and CHRISTEN, Circuit
Judges.
OPINION
CHRISTEN, Circuit Judge:
This appeal requires us to consider whether a business
that buys and profits from consumer debts, but outsources direct collection activities, qualifies as a “debt collector” for purposes of the Fair Debt Collection Practices
(1a)

2a
Act (FDCPA), 15 U.S.C § 1692 et seq. Plaintiff McAdory’s
complaint alleged that DNF Associates, LLC qualified
under the statute’s first definition: “any business the principal purpose of which is the collection of any debts.” 15
U.S.C. § 1692a(6). The complaint did not allege that DNF
interacted directly with consumers. The district court
granted DNF’s motion to dismiss, concluding that the operative complaint failed to state a claim against DNF because debt buyers that do not directly interact with consumers to collect debts do not qualify as debt collectors.
We have jurisdiction pursuant to 28 U.S.C. § 1291, and
we reverse the district court’s judgment. We join the
Third Circuit in concluding that an entity that otherwise
meets the “principal purpose” definition of debt collector
cannot avoid liability under the FDCPA merely by hiring
a third party to perform its debt collection activities. Barbato v. Greystone All., LLC, 916 F.3d 260, 261 (3d Cir.),
cert. denied sub nom., Crown Asset Mgmt. LLC v. Barbato, ––– U.S. ––––, 140 S. Ct. 245, 205 L.Ed.2d 129 (2019).
I. BACKGROUND
The operative complaint alleged that Jillian McAdory
owed a debt to Kay Jewelers, and that DNF purchased
the debt after McAdory stopped making timely payments.
The complaint also alleged that McAdory first learned of
DNF when she received a letter sent by First Choice Assets informing her that she owed a debt to DNF, and that
McAdory took no action in response to the letter because
she did not recognize DNF. McAdory averred that four
months later, she received a voicemail message from an
unidentified caller that referred to “asset verification”
and an expedited “process for enforcement review.” According to the complaint, McAdory returned the call and
spoke with someone who identified himself as an MNS
agent, implied that he was a lawyer, and indicated that

3a
McAdory would be sued for the unpaid debt. McAdory
agreed to pay the debt during a subsequent telephone call
with the same MNS agent. The agent emailed a document
to McAdory that memorialized the agreement the same
day. Finally, the complaint alleged that contrary to the
terms of the parties’ agreement, MNS prematurely withdrew funds before an authorized payment date.
McAdory alleged that DNF and MNS committed
eight separate violations of the FDCPA relating to MNS’s
telephonic message and withdrawal of funds. The complaint alleged that DNF violated the FDCPA by using
“false, deceptive, or misleading representation or means
in connection with the collection of any debt,” 15 U.S.C.
§ 1692e, and “unfair or unconscionable means to collect or
attempt to collect any debt,” id. § 1692f. The complaint did
not allege that First Choice Assets violated the FDCPA
or name First Choice as a defendant.
The operative complaint alleged that DNF is a debt
collector because its principal purpose is “the collection of
defaulted consumer debts that it purchases for pennies on
the dollar,” from which it “derives the vast majority of its
income.” It also alleged that DNF contracted with a network of other debt collectors that directly contacted consumers in DNF’s name and at its direction. According to
the complaint, DNF set the “parameters of the terms and
amounts of the payments made by the debtors.” The complaint did not allege that DNF directly contacted
McAdory about her debt. Instead, McAdory claimed that
DNF was vicariously and jointly liable for MNS’s violations.
DNF moved to dismiss McAdory’s operative complaint, arguing that a debt buyer that outsources collection activities to third-party contractors does not meet the

4a
FDCPA’s definition of a “debt collector.” The motion further argued that because DNF was not a debt collector, it
could not be vicariously liable for MNS’s alleged FDCPA
violations.
The district court granted DNF’s motion to dismiss,
ruling that McAdory’s complaint failed to state a claim
against DNF because “[d]ebt purchasing companies like
DNF who have no interactions with debtors and merely
contract with third parties to collect on the debts they
have purchased simply do not have the principal purpose
of collecting debts.” The court concluded there was little
to suggest that Congress considered these companies
when it drafted the FDCPA, and because the FDCPA’s
substantive provisions govern interactions between consumers and debt collectors, the court reasoned that Congress intended the statute to apply only to those who directly interact with consumers.
The district court acknowledged that a debt purchasing company “may be a debt collector in the literal sense
that it purchases debt for the purpose of making money
by hiring a third party to collect on that debt.” But the
court reasoned that “[t]he fact that a business benefits
from the collection of debt by an entirely separate third
party does not necessarily make the principal purpose of
that business the collection of those debts.”
McAdory moved for leave to file a second amended
complaint, seeking to add supplemental allegations that
DNF filed collection lawsuits against consumers and was
licensed as a debt collection agency in multiple states. The
district court construed McAdory’s filing as a motion for
reconsideration and denied it. The court also clarified that
it had dismissed DNF from the lawsuit with prejudice.

5a
McAdory obtained an entry of default against MNS,
which had not responded to her complaint, and moved for
entry of a separate final judgment as to DNF pursuant to
Federal Rule of Civil Procedure 54(b). The district court
granted the motion, and allowed McAdory to seek review
of its order granting DNF’s motion to dismiss. The court
observed that the issue was “a close one with courts
around the country issuing conflicting decisions.”
McAdory timely appealed, and the parties agree that the
question presented is whether a business must have direct
interaction with consumers to qualify as a debt collector
pursuant to the FDCPA.
II. STANDARD OF REVIEW
We review de novo the district court’s order granting
a motion to dismiss for failure to state a claim. Syed v. MI, LLC, 853 F.3d 492, 499 (9th Cir. 2017). We accept the
complaint’s well-pleaded allegations as true and construe
all inferences in the light most favorable to the nonmoving
party. Schlegel v. Wells Fargo Bank, NA, 720 F.3d 1204,
1207 (9th Cir. 2013).
III. DISCUSSION
In 1977, Congress enacted the FDCPA “to eliminate
abusive debt collection practices by debt collectors, to insure that those debt collectors who refrain from using
abusive debt collection practices are not competitively disadvantaged, and to promote consistent State action to
protect consumers against debt collection abuses.” 15
U.S.C. § 1692(e). Concerned that unfair debt collection
tactics contribute to personal bankruptcies, family instability, job loss, and privacy intrusions, id. § 1692(a), Congress imposed affirmative requirements on debt collectors and prohibited certain debt collection practices, Rotkiske v. Klemm, ––– U.S. ––––, 140 S. Ct. 355, 357, 205

6a
L.Ed.2d 291 (2019). Because the statute is broadly remedial, we liberally construe the FDCPA in favor of consumers. See Hernandez v. Williams, Zinman & Parham PC,
829 F.3d 1068, 1078–79 (9th Cir. 2016).
The FDCPA applies to debt collectors, which the statute defines in two alternative ways: (1) “any person who
uses any instrumentality of interstate commerce or the
mails in any business the principal purpose of which is the
collection of any debts,” or (2) “[any person] who regularly
collects or attempts to collect, directly or indirectly, debts
owed or due or asserted to be owed or due another.” 1 15
U.S.C. § 1692a(6); see also Schlegel, 720 F.3d at 1208. We
refer to the first definition as the “principal purpose”
prong (those engaged in “any business the principal purpose of which is the collection of any debts”), and we refer
to the second definition as the “regularly collects” prong
(those “who regularly collect[ ] . . . debts owed or due another”). 15 U.S.C. § 1692a. McAdory’s operative complaint alleged that DNF qualified as a debt collector under the principal purpose prong.
McAdory argues the district court erred by ruling that
the FDCPA’s principal purpose prong—its first definition
of “debt collector”—requires direct interaction with consumers. We begin by examining the plain meaning of the
statutory text. See Jimenez v. Quarterman, 555 U.S. 113,
118, 129 S. Ct. 681, 172 L.Ed.2d 475 (2009) (observing that
the plain language is the starting point of statutory construction); Seldovia Native Ass’n v. Lujan, 904 F.2d 1335,
1341 (9th Cir. 1990) (noting that courts determine plain

1
The statute also provides other definitions of “debt collector,” and
various exceptions to the statutory definitions, none of which are pertinent to this appeal. See 15 U.S.C. § 1692a(6).

7a
meaning by looking to the language and design of the statute as a whole).
The parties agree that the FDCPA uses the phrase
“principal purpose” to refer to a business’s most important goal or objective. See Barbato, 916 F.3d at 267.
Determining a business’s principal purpose thus involves
comparing and prioritizing its objectives, not analyzing
the means employed to achieve them. Accordingly, the
relevant question in assessing a business’s principal purpose is whether debt collection is incidental to the business’s objectives or whether it is the business’s dominant,
or principal, objective. By contrast, the FDCPA’s second
definition of “debt collector” depends upon a person’s regular activities—i.e., whether the person “regularly collects . . . debts.” 15 U.S.C. § 1692a(6).
The Third Circuit recently examined the principal
purpose prong in Barbato v. Greystone Alliance, LLC,
916 F.3d 260 (3d Cir. 2019). There, the defendant argued
it was not a debt collector because it took no collection action towards consumers, and because its principal purpose “was not the collection of debt but, rather, its acquisition.” 916 F.3d at 263. Barbato was an appeal from a
summary judgment ruling, and the record reflected that
the defendant’s “only business [was] the purchasing of
debts for the purpose of collecting on those debts, and . . .
without the collection of those debts, [the defendant]
would cease to exist.” Id. at 268. The Third Circuit affirmed the trial court’s ruling that the defendant qualified
as a debt collector under the principal purpose prong, id.
at 261, 263, because “[t]he existence of a middleman does
not change the essential nature—the ‘principal purpose’—of [the defendant’s] business.” Id. at 268.
DNF makes the same argument here, asserting that
its principal purpose is not collecting debt, but “buying

8a
debt for investment purposes” to “profit on its investment.” McAdory objects that DNF raises this argument
for the first time on appeal. McAdory argues that merely
acquiring consumer debt cannot truly be DNF’s principal
purpose, because if its only goal or objective were to acquire debt, it would soon go out of business. McAdory
maintains that “the only conduct DNF undertakes to
‘profit’ off the debts it buys is to hire others to collect it.”
Although McAdory’s point is well-taken, it is nonetheless
premature because DNF’s argument about its principal
purpose highlights a factual dispute. At the 12(b)(6) stage,
we accept as true all well-pleaded factual allegations in the
complaint and construe them in the light most favorable
to McAdory. Schlegel, 720 F.3d at 1207. Here, the complaint alleged that DNF’s principal purpose was to buy
consumer debts in order to collect on them, and that this
is how DNF generated most or all of its income. Because
McAdory’s complaint sufficiently alleged that DNF’s
principal purpose was to collect debt, we need not consider DNF’s newly raised fact-based argument about its
principal purpose. See, e.g., Dahlia v. Rodriguez, 735 F.3d
1060, 1076 (9th Cir. 2013) (“Because the district court
granted a Rule 12(b)(6) motion to dismiss, our task is not
to resolve any factual dispute, but merely to determine
whether [the plaintiff’s] allegations” state a plausible
claim.). A claim has facial plausibility when a plaintiff
“pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678,
129 S. Ct. 1937, 173 L.Ed.2d 868 (2009).2

The dissent also argues that the complaint’s “principal purpose”
allegations are conclusory. We disagree. The complaint alleged that
DNF acquires consumer debt for the purpose of collecting on it, from
which it “derive[s] large profits” and “the vast majority of its income.”
2

9a
DNF urges us to focus on the first prong’s use of the
word “collection,” which DNF defines as “the act or process of collection.” Relying on this definition, DNF reads
the first prong of § 1692a(6) to require that a business’s
principal purpose must be the act of collecting debts in order to qualify as a “debt collector.” But DNF acknowledges that “collection” is also defined as “that which is collected.” See Barbato, 916 F.3d at 267.
In Barbato, the Third Circuit considered whether the
principal purpose prong requires direct interaction with
consumers, and rejected that interpretation. Id. The
Third Circuit concluded that the word “collection” shifts
the focus “from the act of collecting to what is collected,
namely, the acquired debts.” Id. at 267 (emphasis in original). The Third Circuit reasoned:
In contrast to the [second prong’s] “regularly collects”
definition, where Congress explicitly used the verb “to
collect” in describing the actions of those it intended
the definition to cover, in the “principal purpose” definition, Congress used the noun “collection” and did not
specify who must do the collecting or to whom the debt
must be owed. Thus, by its terms, the “principal purpose” definition sweeps more broadly than the “regularly collects” definition . . . .
Id. at 267–68 (internal citations omitted). It was critical to
the Third Circuit’s rationale that “the ‘regularly collects’
definition employs a verb and the ‘principal purpose’ definition employs a noun.” Id. at 267. We find this analysis
of the statutory text persuasive and decline to read a direct interaction requirement into the principal purpose
By parsing the difference between “income” and “profit,” the dissent
departs from our role at the 12(b)(6) stage. See Schlegel, 720 F.3d at
1207.

10a
prong based on the phrase “the collection of any debts.”
Further, DNF’s interpretation of the principal purpose
prong would largely collapse the two alternative definitions of debt collector, contrary to the rule that “we presume differences in language like this convey differences
in meaning.” Henson v. Santander Consumer USA Inc.,
––– U.S. ––––, 137 S. Ct. 1718, 1723, 198 L.Ed.2d 177
(2017); see also Schlegel, 720 F.3d at 1209 (declining to
adopt an interpretation of the principal purpose prong
that would render superfluous the “regularly collects”
prong).
Because the Third Circuit reasoned in Barbato that
the first prong uses “collection” as a noun and the second
prong uses “collects” as a verb, our dissenting colleague
substitutes “stockpile” and “assortment” in prong one and
treats “collection” as something to be gathered together
for the sake of keeping it—like rare coins or antiques. Unsurprisingly, the dissent decides that this reading makes
no sense. We agree that it would not, but the Third Circuit
did not adopt “stockpile” or “assortment.” Barbato
merely recognized that the phrase “collection of any
debts” in prong one describes the type of business Congress sought to regulate—i.e., one with a principal purpose of debt collection. In contrast, in prong two Congress
used “collects” as a verb and defined debt collectors by the
activities they regularly engage in.
Shifting away from § 1692a(6)’s text, DNF also argues
that the FDCPA’s other provisions support the district
court’s conclusion that Congress intended the principal
purpose prong to apply only to those who have direct contact with consumers. In support of this argument, DNF
points to the FDCPA’s limitations on ways debt collectors
may interact with consumers. See, e.g., 15 U.S.C. § 1692c
(regulating communications with consumers); § 1692d

11a
(prohibiting harassing or abusive conduct); § 1692e (prohibiting false, deceptive or misleading representations).
We agree that many of the FDCPA’s specific restrictions
pertain to direct interactions with consumers, but the
question we must answer is not whether the FDCPA regulates interaction with consumers, which it clearly does,
but which actors are subject to the statute’s restrictions.
The fact that the FDCPA includes limits on direct collection activities does not require the conclusion that Congress intended to regulate only those entities that directly
interact with consumers. First, the text of the principal
purpose prong contains no such limitation, see § 1692a(6),
and as Barbato explained, “ ‘[c]ollection’ by its very definition may be indirect, and that is the type of collection in
which [the defendant] engages: it buys consumer debt and
hires debt collectors to collect on it.” 916 F.3d at 268. Second, the specific provisions DNF relies upon must be read
in conjunction with other parts of the statute, which make
plain that Congress recognized that some debt collectors
do not directly interact with consumers. We know this because the “regularly collects” prong expressly applies to
businesses that “directly or indirectly” collect debt.
§ 1692a(6) (emphasis added).
DNF also argues that legislative history reveals that
Congress did not anticipate the emergence of the debtbuying industry when it enacted the FDCPA in 1977, and
thus it could not have intended to regulate entities like
DNF. We are not persuaded. First, the FDCPA’s text is
sufficiently clear that we need not resort to legislative history. See Barbato, 916 F.3d at 269; Scott v. Jones, 964 F.2d
314, 317 (4th Cir. 1992); see also Mohamad v. Palestinian
Auth., 566 U.S. 449, 458, 132 S. Ct. 1702, 182 L.Ed.2d 720
(2012). Second, to the extent we do consult legislative history, our interpretation of the principal purpose prong is

12a
consistent with Congress’s desire to regulate debt collectors who “are likely to have no future contact with the consumer and often are [therefore] unconcerned with the
consumer’s opinion of them,” rather than entities with ongoing customer relationships that are generally “restrained by the desire to protect their good will when collecting past due accounts.” S. Rep. No. 95–382, at *2, U.S.
Code Cong. & Admin. News 1977, pp. 1695, 1696. Put differently, debt buyers profiting from debt collection lack
market incentives that deter the sort of abusive debt collection practices Congress was motivated to regulate. As
Barbato observed, “[u]nlike a traditional creditor, such as
a bank or a retail outlet that has its own incentive to cultivate good will among its customers and for which debt collection is one of perhaps many parts of its business, an independent debt collector . . . has only one need for consumers: for them to pay their debts.” 916 F.3d at 268–69.3
The Third Circuit recently observed, “[n]o longer do
creditors simply hire debt collectors to serve their named
role; rather, with increased frequency creditors sell debt
to purchasers, who may again resell the debt, hire outside
debt collectors to undertake collection efforts, or attempt
to collect on their own.” Tepper v. Amos Fin., LLC, 898

3
DNF’s description of debt collectors that do not own the debts
they collect underscores this concern. According to DNF, “[i]f a debt
collector does not collect on the debt, he is no worse off than he was
before any attempt was made.” By contrast, DNF observes a “debt
buyer will have lost on that investment” if there is no collection. This
view suggests that debt buyers like DNF who profit from the collection of debts they own face greater financial pressure to cut corners
compared with those agencies that regularly collect debts due another. DNF’s argument here also underscores our conclusion that
DNF’s principal purpose is not merely debt acquisition, but is instead
the acquisition of debt for the purpose of collecting on it.

13a
F.3d 364, 366 (3d Cir. 2018) (citing Federal Trade Commission, The Structure and Practices of the Debt Buying
Industry 1 (2013)). We agree that the debt collection industry has evolved since Congress passed the FDCPA,
but these changes do not support the statutory interpretation DNF urges us to adopt. A primary purpose of the
FDCPA was to protect consumers from abusive debt collection practices by debt collectors, 15 U.S.C. § 1692(e),
and given the emergence of entities that purchase debt
and subcontract regular collection activities, this purpose
would be entirely circumvented if the Act’s restrictions
did not apply to entities like DNF. As we recently observed, Congress did not intend to ban debt collection; it
intended to eliminate abusive, deceptive, and unfair collection practices. Stimpson v. Midland Credit Mgmt.,
Inc., 944 F.3d 1190, 1195 (9th Cir. 2019). Our interpretation of the principal purpose prong furthers the statute’s
purpose and puts DNF and other similar debt buyers on
level footing with other debt collectors regulated by the
FDCPA. See § 1692(e).
DNF also suggests that McAdory’s position conflicts
with the Supreme Court’s decision in Henson. But in Henson, the Court interpreted the “regularly collects” prong
and altogether declined to address the “principal purpose” prong.4 137 S. Ct. at 1721; see also Barbato, 916 F.3d
at 266. Henson does not change the outcome here.
Finally, DNF argues that it cannot be a debt collector
if it also meets the definition for “creditor.” This argument
erroneously assumes that the FDCPA uses these two

4
Henson is further distinguishable because the defendant in that
case asserted that its primary business was originating loans, not purchasing defaulted consumer debt. See 137 S. Ct. at 1725.

14a
terms in mutually exclusive ways. We have already rejected a per se rule that those who meet the FDCPA’s definition of creditor cannot be debt collectors. Schlegel, 720
F.3d at 1208 n.2. And in Henson, the Supreme Court declined to adopt the view that the FDCPA “treats everyone
who attempts to collect a debt as either a ‘debt collector’
or a ‘creditor,’ but not both.” Henson, 137 S. Ct. at 1724;
see also Barbato, 916 F.3d at 266.
Contrary to the dissent’s suggestion, we do not direct
the district court on remand to discard the application of
familiar principles of agency law when it addresses vicarious liability. Nor do we suggest that one businessperson
may be liable for another just because they are in the
same business. The circumstances under which an entity
can be a “debt collector” logically precedes consideration
of whether and when a debt collector can be held vicariously liable for the actions of another debt collector. On
remand, the existing body of case law will govern the requirements of vicarious liability, and this opinion does
nothing to alter that regime. See, e.g., Clark v. Capital
Credit & Collection Servs., Inc., 460 F.3d 1162, 1173 (9th
Cir. 2006) (holding that “general principles of agency . . .
form the basis of vicarious liability under the FDCPA”).
Before our panel, McAdory’s counsel expressly waived
the argument that a non-debt collector can be held vicariously liable under the FDPCA. But McAdory’s counsel
went on to clarify that if DNF is found to be a debt collector, the next step—not yet reached by the trial court—will
be to decide whether DNF is vicariously liable according
to agency principles. McAdory recognizes, and we reiterate, that vicarious liability may be addressed on remand.
We conclude that McAdory sufficiently alleged that
DNF’s principal purpose is the collection of debts as defined by the principal purpose prong of § 1692a(6). The

15a
complaint alleged that DNF lacks any other business purpose besides debt collection. These allegations are sufficient to allege that DNF is a debt collector under the
FDCPA, regardless of whether DNF outsources debt collection activities to a third party.
We reverse the district court’s order granting DNF’s
motion to dismiss and remand to the district court for further proceedings.
REVERSED AND REMANDED.
BEA, Circuit Judge, dissenting:
I respectfully dissent from the majority opinion for
three reasons.
I.
The first reason is based on the operative complaint’s
undisputed utter lack of any allegations that DNF acted
directly in any way to violate appellant McAdory’s rights
under the FDCPA. As a matter of substantive law, then,
DNF can be held liable only for the acts of co-defendant
MNS on a theory of vicarious liability. But the problem is,
the FDCPA does not contain any textual basis for vicarious liability of one “debt collector” for the acts of another
“debt collector,” even were DNF validly to be classified as
a “debt collector.” The notion that vicarious liability somehow attaches to one “debt collector” account the actions of
another “debt collector” arises from the unexplained conclusion that such seems “a fair result.” Pollice v. Nat’l Tax
Funding, L.P., 225 F.3d 379, 405 (3d Cir. 2000) (stating
that its finding of vicarious liability “is a fair result because an entity that is itself a ‘debt collector’—and hence
subject to the FDCPA—should bear the burden of monitoring the activities of those it enlists to collect debts on

16a
its behalf.”). Why one businessman should be liable for the
acts of another businessman in the same business just because they are in the same business is a mystery to me. If
each is a “debt collector,” each is subject to the duties
owed by a debt collector to consumers. But why is there
vicarious liability for another business’s acts absent facts
which establish common law respondeat superior? Pollice
offered no reasoning as to what considerations enter into
the court’s conclusion of a “fair result,” or what is the basis
for the court determining that it was empowered to decide
based on what it thought was a “fair result.”
I am mindful, however, that Congress is thought to
legislate on a background of settled legal principles, such
as the common-law doctrine of respondeat superior,
which does provide the basis for vicarious liability. Meyer
v. Holley, 537 U.S. 280, 285, 123 S. Ct. 824, 154 L.Ed.2d
753 (2003). It would be a relatively simple case for us to
find plaintiff’s allegations sufficient to state a claim for vicarious liability. After all, plaintiff does allege that DNF
exercised control over the actions of the “physical debt
collectors” such as MNS in such detail that reasonable jurors could find DNF actually controlled alleged “debt collector” MNS’s acts toward McAdory, and that DNF
should be liable for the legal effects of such acts. This
should result in a reversal of the summary judgment in
favor of DNF because the District Court failed to recognize that the complaint sufficiently alleged vicarious liability.
But we cannot do so here because Plaintiff-Appellant
McAdory has expressly eschewed the argument that
DNF could be vicariously liable for MNS’s conduct without DNF qualifying as a “debt collector” under the
FDCPA when specifically questioned on this point at oral

17a
argument.1 We cannot consider arguments expressly
waived. See, e.g., In re Rodeo Canon Dev. Corp., 392 F.
App’x 576, 579 (9th Cir. 2010). Because Plaintiff-Appellant
McAdory submits that her case must rise or fall on
whether DNF qualifies as a “debt collector” for the purposes of the FDCPA, I would hold that DNF does not so
qualify and affirm the district court’s grant of summary
judgment in favor of DNF for the reasons explained below.
I believe the Majority is incorrect in holding both that
DNF must qualify as a “debt collector” under the FDCPA
before it can be held liable for MNS’s conduct, and that
DNF does so qualify. However, unlike the Third Circuit
in Pollice, the Majority has thankfully affirmed that common law principles of respondeat superior will apply on
remand, in light of its holding that DNF is a “debt collector” under the FDCPA.

1

The exchange at oral argument was as follows:
Judge Bea: You’re not taking the position that regardless
whether DNF was a ‘debt collector’ . . . it should be liable [on a
theory of] vicarious liability because it controlled the actions of
MNS, which were allegedly a violation of . . . the federal act.
Counsel for Appellant: Correct, we are arguing that, if DNF is
found to be a ‘debt collector,’ it can be held—and then you would
move on to the next question, which is look at the agency principles, and determine whether there is vicarious liability.
Judge Bea: But it can’t be held, according to the Appellant, unless
it is a ‘debt collector.’
Counsel for Appellant: Correct, that was the question.
Judge Bea: Thank you.

18a
II.
The second and third reasons for my dissent have to
do with statutory interpretation. I do not think that DNF
is a “debt collector” who owes FDCPA statutory duties to
McAdory, because McAdory has not adequately alleged
that MNS’s (2) “principal purpose” is (3) the “collection of
any debts.”
True, the opening sentence of the charging allegations
of the complaint state: “The principle [sic] purpose of
DNF is the collection of defaulted consumer debts . . . .”
But that allegation is simply the recitation of the statutory
description of a “debt collector,” the classically inadequate allegation invalidated by Iqbal and Twombly.2 No
specific factual allegations follow that hollow conclusory
allegation to make the description of DNF as a “debt collector” adequate. Given that the operative complaint does
not allege that DNF has any direct interactions with consumers, the only remaining question is whether its other
factual, not conclusory, allegations allow us to conclude
that such debt collection is nonetheless DNF’s “principal
purpose.”
The operative complaint alleges that DNF “derive[s]
large profits” from “defaulted consumer debts that it purchases for pennies on the dollar.” Accepted as true for the
purposes of DNF’s 12(b)(6) motion, this allegation does

2
Ashcroft v. Iqbal, 556 U.S. 662, 678–79, 129 S. Ct. 1937, 173
L.Ed.2d 868 (2009) (holding that “the tenet that a court must accept
as true all of the allegations contained in a complaint is inapplicable
to legal conclusions. Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do not suffice.”)
(citing Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955,
167 L.Ed.2d 929 (2007)).

19a
not establish that DNF’s principal purpose is the collection of debt. First, if anything, the allegation establishes
that debt collection is not the only component of DNF’s
business. The other integral part, as alleged by McAdory,
is the acquisition of that debt at a discounted price (“for
pennies on the dollar”). Second, this allegation is not surprising, as the principal purpose of nearly every firm in a
market-based economic system is to make a profit by buying low and selling high. But the fact that a firm’s profits
are large—whether they are derived from purchasing discounted debt, collecting on that debt, or otherwise—says
nothing about how important they are relative to other
potential profit-making activities in the firm. In other
words, just because DNF derives a lot of profit from the
discounted debt it purchases, it does not tell us whether
or not DNF derives a lot more profit from other, unrelated activities. McAdory alleges no facts which allow us
to conclude what portion of DNF’s profits derive from
debt collection. Hence, it tells us nothing of DNF’s single
“principal purpose.”
Further, McAdory alleges that “DNF actively participates in, directs, and derives the vast majority of its income from a large national debt collection network of
which it is the head of.” DNF contracts with third-party
debt collectors around the country, according to
McAdory, and supplies them with the debtors’ personal
information and parameters of collection. But none of
these facts are sufficient to make out a claim that DNF
has the “principal purpose” of debt collection, either.
DNF’s “income” is obviously different from its profit, and
thus income, by itself, cannot tell us much about the activity’s importance to DNF. For aught that appears in the
allegations of the complaint, the “vast majority” of DNF’s
profit could very well come from other activities having
nothing to do with debt collection, even when we accept as

20a
true that the “vast majority” of its income is so produced.
For all we know, maybe the “physical debt collectors” described in the operative complaint take such a large cut of
any collected payments that the profits DNF derives from
such activities are relatively unimportant to its overall
business. In fact, that is exactly what the operative complaint suggests: that DNF “derive[s] [its] large profits”
from debts that it has “purchase[d] for pennies on the dollar”—and perhaps has sold to others at a markup—and
not from debts it has collected.
Thus, the Majority is at least half right: if DNF did not
have some way of monetizing the debt it acquired, it would
soon go out of business. Maj. Op. at 1093. But in being half
right, it is also half wrong: based on the allegations as they
appear in the operative complaint, DNF would also go out
of business if it could no longer acquire such debts at a
price well below face value. According to the operative
complaint, the factual allegations of which we must accept
as true, both activities are integral to DNF’s business.
And the operative complaint contains no allegations or
other inferences that would allow us to conclude which, if
either, of these two activities qualifies as DNF’s “principal
purpose.”
The bottom line, then, is that the allegations of the
complaint do not sufficiently make out a claim that debt
collection—even indirect debt collection—is the “most
important” goal or aim of DNF. According to the complaint, the actual collection of debts is no more important
to the production of profit than is the earlier purchase of
the debt at a price lower than the amount collected. One
cannot expect “large profits” if debt is bought dear and
collected dear, or worse, collected cheap.

21a
At best, the two acts—the purchase and the collection
of debt—are both described in the complaint as the principal purposes of DNF. But the FDCPA describes a “debt
collector” as one who has “the principal purpose” of the
“collection of any debts”—not one who has as “a principal
purpose” such collection. Thus, even were the Majority
opinion’s reading of “collection of any debts” correct, it
would be only half right, but also half wrong. Section
1692a(6) does not describe as a “debt collector” a person
one of whose principal purposes is the collection of any
debts. It is an all or nothing description. Clearly, for a
profit motivated business, DNF does not qualify as a
“debt collector” under the “principal purpose” prong of
Sec. 1692a(6).
III.
A.
The third reason why Section 1692a(6) does not apply
to DNF is that the word “collection” in the phrase “the
collection of any debts” must, in context, describe the action of collecting, and not a collection of a set of items
(such as debts). In its interpretation of the statute, the
Majority followed the only other Court of Appeals to have
decided the issue. Barbato v. Greystone All., LLC, 916
F.3d 260, 261 (3d Cir.), cert. denied sub nom. Crown Asset
Mgmt. LLC v. Barbato, ––– U.S. ––––, 140 S. Ct. 245, 205
L.Ed.2d 129 (2019). The Barbato Court’s interpretation of
the statutory text, which the Majority adopted, relies
heavily on a flawed grammatical analysis. In interpreting
the phrase, “any business the principal purpose of which
is the collection of any debts,” 15 U.S.C. § 1692a(6), the
Third Circuit reasoned:
While it is true that “collection” can be defined as “the
act or process of collecting,” it can also be defined as

22a
“that which is collected.” Collection, Random House
Dictionary of the English Language 290 (1973). So defined, the focus shifts from the act of collecting to what
is collected, namely, the acquired debts. As long as a
business’s raison d’être is obtaining payment on the
debts that it acquires, it is a debt collector. Who actually obtains the payment or how they do so is of no moment.
916 F.3d at 267. While I agree that the word “collection”
can be validly defined as “that which is collected” in certain contexts, this definition makes absolutely no sense
here.
These interpretive errors are only compounded with
the Third Circuit’s distinctions based on the statutory
words’ parts of speech. The Majority notes approvingly
that “[i]t was critical to the Third Circuit’s rationale that
‘the “regularly collects” definition employs a verb and the
“principal purpose” definition employs a noun.’ ” Maj. Op.
at 1094 (citing Barbato, 916 F.3d at 267). And it is on this
basis that the Majority rejects DNF’s proposed definition, “the act or process of collecting.” Id. at 1093–94.
Because this simple grammatical error has now toppled two United States Courts of Appeals, I am afraid I
must go back to basics. The mere fact that a word appears
in the form of a noun instead of the form of a verb does
not mean that it cannot refer to action. “Action,”3 in fact,
is a noun. So are the words in DNF’s proposed definition

3
Action, Merriam-Webster Dictionary, https://www.merriamwebster.com/dictionary/action.

23a
of collection, the “act”4 or the “process”5 of collection. And
so are thousands of other words that refer to actions, like
“arrival,”6 “dismissal,”7 “launch,”8 “release,”9 and “use.”10
So yes, Congress used the form of a noun in the “principal purpose” prong of the FDCPA’s definition, and the
form of a verb in the “regularly collects” prong. But how
do we get from this unremarkable fact to the conclusion
that the word “collection” cannot refer to an action?11 Neither the Barbato Court nor the Majority provide an explanation. But it appears to me to amount to no more than
a simple misunderstanding of the way words work: that
“[N]oun. [T]he doing of a thing.” Act. Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/act.
4

“[N]oun. [A] series of actions or operations conducing to an end.”
Process, Merriam-Webster Dictionary, https://www.merriamwebster.com/dictionary/process.
5

“[N]oun. [T]he act of arriving.” Arrival, Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/arrival.
6

“[N]oun. [T]he act of dismissing.” Dismissal, Merriam-Webster
Dictionary, https://www.merriam-webster.com/dictionary/dismissal.
7

“[N]oun. [A]n act or instance of launching.” Launch, MerriamWebsterDictionary, https://www.merriam-webster.com/dictionary/
launch.
8

9
“[N]oun. [T]he act or an instance of liberating or freeing (as from
restraint).” Release, Merriam-Webster Dictionary, https://www.merriamwebster.com/dictionary/release.

“[N]oun. [T]he act or practice of employing something.” Use,
Merriam-Webster Dictionary, https://www.merriam-webster.com/
dictionary/use.
10

11
For what it’s worth, even the definition of the word “noun” contradicts this conclusion: A noun is “any member of a class of words
that typically . . . refer to an entity, quality, state, action or concept.”
Noun, Merriam-Webster Dictionary, https://www.merriamwebster.com/dictionary/noun (emphasis added).

24a
because verbs typically convey “actions” and nouns typically convey “things,” there can be no mixing between
such categories.12 But surely we are expected to rise above
such a rudimentary (and incorrect) understanding of
grammar when we are interpreting a statutory text.
Put differently, acknowledging that “collection” is a
noun (rather than a verb) does not end the inquiry, because the noun “collection” has many different definitions—some of which refer to things and some of which
refer to actions.13 We all agree that the noun “collection,”
depending on the context, can mean “that which is collected,” or “the act or process of collecting.” But both Barbato and the Majority have opted for the former definition
of the noun “collection” without explaining why it should
be preferred over the latter, other than by pointing out
that the separate, second “regularly collects” prong of the
statute employs a verb rather than a noun. As explained,
this offers no insight into which definition of the noun
“collection” should be understood in section 1692a(6).
Since both of these definitions can be valid definitions of
the noun “collection” in certain contexts, our task is to
evaluate what each of them would mean.
Let me begin with the Third Circuit’s definition,
adopted by the Majority. For ease of reference to this definition of “collection”—“what is collected”—one might use

Perhaps this is what is implied in the Barbato Court’s assertion
that, “it is, after all, a verb that requires action.” 916 F.3d at 268.
12

13
See, e.g., Collection, Merriam-Webster Dictionary,
https://www.merriam-webster.com/dictionary/collection
(defining
“collection” as “[N]oun. [T]he act or process of collecting[;] something
collected[;] GROUP, AGGREGATE[;] a set of apparel designed for
sale usually in a particular season.”)

25a
the synonyms “assortment” and “stockpile.”14 Obviously,
these synonyms are not mentioned in Barbato or the Majority opinion, but I employ them here to demonstrate
what their adopted definition of “collection” would mean:
When “collection” means “what is collected,” it refers to
the things that are collected. Barbato, 916 F.3d at 267
(stating that this definition causes “the focus [to] shift[ ]
from the act of collecting to what is collected.”) (emphasis
added).
What would a business look like if its primary purpose
were “what is collected” instead of “the act of collecting”—in other words, for a business’s purpose to be collected things? Of course, a business’s primary objective
might be to obtain a “collection” or “assortment” of coins,
of paintings, or of vintage automobiles. But unless one
charges for viewing such collection, the “collection” itself—or, as the Majority would have it, the things that are
collected—would not constitute much of a “business” as
described by Section 1692a(6). And, of course, one can
even have—and maybe DNF does have—a “collection” or
“stockpile” of debts. This is what is described by the Third
Circuit’s and the Majority’s definition: When the word
“collection” means “that which is collected,” it refers not
to an act but to a thing (or a group of things). In other
words, according to the Majority’s reading of the statute,
DNF’s principal purpose in its business is: To maintain a

14
See, e.g., Collection, Merriam-Webster Thesaurus,
https://www.merriam-webster.com/thesaurus/collection.

26a
debt “collection.” If this sounds absurd, that’s because it
is.15
But are we really expected to believe that this is the
type of debt “collection” to which Congress was referring
in the “principal purpose” prong? For, what could it even
mean, as the Majority joins the Third Circuit in holding,
that DNF’s “principal purpose” is a group of things—
“that which is collected,” or “[the debt] which is collected
(or, as I have said, an “assortment” or a “[stockpile] of any
debts”)?” 15 U.S.C. § 1692a(6). Both the Majority and the
Barbato Court acknowledge that a business that acquires
“a collection of . . . debts” without realizing their payment
(or otherwise monetizing them) would soon go out of business. Maj. Op. at 1093; 916 F.3d at 268. So why do they
both insist that the statute seeks to encompass these nonexistent business models?
Further, a debt “collection” in this sense (describing
“what is collected”) is not the purpose (or business model)
that either the Majority or the Barbato Court ultimately
attribute to the purported “debt collector.” See Maj. Op.
at 1095 (citing approvingly to Barbato, 916 F.3d at 268,
that “indirect” collection “is the type of collection in which
[the defendant] engages: it buys consumer debt and hires
debt collectors to collect on it.”). Indeed, in the midst of its
statutory interpretation, the Barbato Court reasons (and
the Majority quotes approvingly) that “Congress used the
noun ‘collection’ and did not specify who must do the collecting or to whom the debt must be owed.” Id. at 267 (emphasis added); Maj. Op. at 1094. Put differently, even
15
Such a “collection” of debts might make sense for a governmental
or charitable organization whose principal purpose was the forgiveness of debt, but not for a business which intends the debts be
paid.

27a
while espousing the significance of Congress’s employment of “collection” as a noun, the Barbato Court
acknowledges that it is of course the act of collecting (used
there in the present participle form of a verb) that the
FDCPA’s “principal purpose” prong seeks to capture.
Thus, according to both Barbato and the Majority, the
only proper definition of the noun “collection” in section
1692a(6) is as an action (as opposed to a thing). And thus
in both prongs, it is ultimately a business’s action or activity that brings the purported debt collectors into the
realm of the statute.
That is why it makes much more sense in this context
to adopt the definition that DNF urges for “collection,”
which is “the act or process of collection.” Then the statute
reads, rather straightforwardly, that a “debt collector” is
“any business the principal purpose of which is the [‘the
act or process of collecti[ng]’] of any debts.” Focusing on
the act or process of collecting, rather than on “what is
collected”—DNF’s debt “collection”—also functions to
exclude certain businesses from the “principal purpose”
definition, businesses which are obviously outside the intended scope of the statute. For example, is there any
doubt that a fixed-income investor who exclusively buys
and holds corporate and municipal bonds to maturity has
the “raison d’être [of] obtaining payment on the debts that
it acquires,” Barbato, 916 F.3d at 267, and is—I think all
would agree—not a “debt collector” under either definition of the FDCPA?16
Or, if it is fairly implied that Barbato’s language was limited only
to defaulted consumer debts, consider the business model suggested
later in that decision, one who “buy[s] debt for the purpose of reselling it to unrelated parties at a profit.” 916 F.3d at 268. One can still
say that its “raison d’être is obtaining payment” on that debt, yet under the Majority’s reasoning none of the FDCPA’s prohibitions would
16

28a
The interpretation that “collection” be defined as an
“act” or “process” does not create a “direct interaction”
requirement, as stated by the district court below and rejected by the Majority. Rather, this is simply the requirement that the statute itself imposes: That the purported
debt collector have as its principal purpose an act or process that can be fairly described as “collection,” as put
forth in section 1692a(6). McAdory has simply not alleged
that DNF engages in any such acts or processes. So how
can it be said that DNF—a business which, according to
the allegations of the complaint, never performs the act or
process of collecting—has the principal purpose of “the
collection of any debts”?
B.
Because a noun can denote an action, I have no trouble
accepting the most straightforward definition of the noun
“collection”: a “debt collector” is “any business the principal purpose of which is [the act or process of collecting]
any debts.” I fully acknowledge that this interpretation
means that both prongs of the “debt collector” definition
of section 1692a(6) devote some focus to a person’s actions
or activity. Contrary to the Majority’s assertion, though,
this interpretation does not render either prong of the
statute superfluous, for the actors under the two prongs
are described quite differently. The Majority’s contrary
assertion ignores the substantial differences that exist between what qualifies a “debt collector” under the first
prong and what so qualifies under the second prong.

apply to its business activities, for it obtains payment on the debt from
the buyer of the debt, not the debtor.

29a
Under the second, “regularly collects” prong, a business does not qualify as a debt collector unless it is collecting debts “for another”—that is, debts that it does not
own. Such a business cannot be a debt collector unless it
also collects another’s debts “regularly,” meaning that
even if collection of debts owned by others is its exclusive
line of business, collection activity that is merely occasional will disqualify it from the definition. And finally, the
statute expressly provides that such collection activity
may be done “directly or indirectly.”
To the contrary, under the first, “principal purpose”
prong, which the Majority opinion would apply to DNF, a
business can qualify as a debt collector even if it is collecting on debts that it owns. Such a business can be a debt
collector even if it collects on debts only occasionally or
irregularly, so long as such collection remains its most important goal or aim (or, as the statute puts it, its “principal
purpose”).17 And finally, what is particularly relevant for
DNF: unlike the “regularly collects” prong, the debt “collection” that amounts to the business’s “principal purpose” must be made directly against the debtor, since “directly” or “indirectly” is a requirement of the second
prong but not of the first prong.18
Of course, the Majority is correct that the “principal
purpose” prong contains no express requirement that
qualifying debt “collection” must be made directly against
consumer debtors. But on what basis does the Majority
Such a “debt collector” need not have bought the debt for “pennies on the dollar,” as is alleged DNF did. The firm could buy the debt
for no money up front but solely on the basis of returning a percentage of the amount actually recovered on the debt. Such a business
would have only one “principal purpose”: the collection of debt.
17

18

Scalia & Garner, op. cit. at 174–179.

30a
conclude that “ ‘[c]ollection’ by its very definition may be
indirect,” such that an express requirement would be necessary? Maj. Op. at 1095 (citing Barbato, 916 F.3d at 268).
Congress obviously does not agree: If this were true, why
does the “regularly collects” prong clarify that qualifying
debt collection may be done “directly or indirectly”?
§ 1692a(6). The Majority’s reasoning renders this clarification completely superfluous. Given that we must “presume differences in language like this convey differences
in meaning,” Henson v. Santander Consumer USA Inc.,
––– U.S. ––––, 137 S. Ct. 1718, 1723, 198 L.Ed.2d 177
(2017), I cannot follow the Majority in ignoring this absence of this clarification in the “principal purpose” prong,
so as to conclude that “indirect” actions towards consumers can qualify as “collection” from consumers.
This becomes even more apparent when we
acknowledge that “[t]he [FDCPA] regulates interactions
between consumer debtors and debt collectors.” Jerman
v. Carlisle, McNellie, Rini, Kramer & Ulrich LPA, 559
U.S. 573, 577, 130 S. Ct. 1605, 176 L.Ed.2d 519 (2010) (citing section 1692a(5) and the “regularly collects” prong of
section 1692a(6)). With this in mind, we ought to expect an
express statement from Congress when the FDCPA’s restrictions apply to a business that merely collects debts
“indirectly”—that is, without any direct collection from
the consumer debtor. And this is exactly what we find in
the “regularly collects” prong, and exactly what is absent
in the “principal purpose” prong at issue here. As such, it
is not my interpretation but rather that of the Majority
which would render the word “indirectly” in the second
prong of the definition superfluous.

31a
IV.
In conclusion, I reiterate my initial reason for dissenting. In my opinion, the above discussion as to the proper
way to interpret the first prong’s definition of “debt collector” in section 1692a(6) is entirely unnecessary in this
case. If the Majority believes that DNF may be liable for
MNS’s violations of the FDCPA, it need not distort the
statute with erroneous grammatical distinctions in order
to so hold. Case law that is binding on this Court already
provides an available path.
McAdory alleged not that DNF made any direct contact with her, or that any of DNF’s actions violated the
FDCPA in any way. Instead, she alleged that DNF should
be held vicariously liable for MNS’s direct violations.
While the Ninth Circuit has “recognized vicarious liability
under the FDCPA,” Clark v. Capital Credit & Collection
Servs., Inc., 460 F.3d 1162, 1173 (9th Cir. 2006) (citing Fox
v. Citicorp Credit Servs., Inc., 15 F.3d 1507, 1516 (9th Cir.
1994)), it has never addressed the question whether a person must also be a “debt collector” subject to the FDCPA
to be vicariously liable for the actions of another person,
who, like DNF, is indeed a “debt collector.”
Below, at the motion to dismiss stage, both parties argued under Fox, Clark, and out-of-circuit case law that
DNF could be vicariously liable for MNS’s actions under
the FDCPA only if DNF itself meets the definition of
“debt collector” under section 1692a(6).19 Despite Clark’s
See, e.g., Wadlington v. Credit Acceptance Corp., 76 F.3d 103, 108
(6th Cir. 1996) (declining to hold a non-“debt collector” vicariously liable for its attorney’s violations of the FDCPA); Pollice, 225 F.3d at
405 (citing Fox and Wadlington and stating that its finding of vicarious liability “is a fair result because an entity that is itself a ‘debt collector’—and hence subject to the FDCPA—should bear the burden
19

32a
clear statement that “general principals of agency . . .
form the basis of vicarious liability under the FDCPA,”
the district court accepted the parties’ premise—that a
principal could not be vicariously liable for its agent’s
FDCPA violations unless that principal was itself a “debt
collector” under the FDCPA—and considered its conclusion that DNF was not a “debt collector” to end the inquiry. We have never held that the question whether a
business is a “debt collector” under the FDCPA “logically
precedes consideration of whether and when a debt collector can be held vicariously liable for the actions of another debt collector.” Maj. Op. at 1096. And neither the
FDCPA nor our governing case law require such a conclusion.
The Supreme Court has stated, when evaluating a
claim of vicarious liability under a different statutory
scheme, that “when Congress creates a tort action, it legislates against a legal background of ordinary tort-related
vicarious liability rules and consequently intends its legislation to incorporate those rules.” Meyer, 537 U.S. at 285,
123 S. Ct. 824. The Court continued:
It is well established that traditional vicarious liability
rules ordinarily make principals or employers vicariously liable for acts of their agents or employees in the
of monitoring the activities of those it enlists to collect debts on its
behalf.”); Janetos v. Fulton Friedman & Gullace, LLP, 825 F.3d 317,
325 (7th Cir. 2016) (stating that the “key question, according to the
Third Circuit in Pollice, is whether the defendant whom the plaintiff
seeks to hold vicariously liable is itself a debt collector,” because the
FDCPA “require[s] a debt collector who is independently obliged to
comply with the Act to monitor the actions of those it enlists to collect
debts on its behalf. On the other hand, a company that is not a debt
collector would not ordinarily be subject to liability under the Act at
all.”).

33a
scope of their authority or employment. Burlington
Industries, Inc. v. Ellerth, 524 U.S. 742, 756, 118 S. Ct.
2257, 141 L.Ed.2d 633 (1998) (“An employer may be
liable for both negligent and intentional torts committed by an employee within the scope of his or her employment”); New Orleans, M., & C.R. Co. v. Hanning,
[82 U.S. 649] 15 Wall. 649, 657, 21 L.Ed. 220 (1873)
(“The principal is liable for the acts and negligence of
the agent in the course of his employment, although he
did not authorize or did not know of the acts complained of”).
Id. at 285–86, 123 S. Ct. 824 (holding that under traditional
principles of vicarious liability, a corporation is the principal of its employees/agents, and thus corporate owners
and officers are not liable for the unlawful acts of an employee simply on the basis that the owner or officer controlled (or had the right to control) the actions of that employee).
McAdory expressly abandoned this argument when
arguing before this Court, so I will not address the adequacy of the allegations in the operative complaint. Instead, I am content to conclude as follows: While the operative complaint did not sufficiently allege that DNF is a
“debt collector” under the FDCPA, longstanding case law
that is binding on this Court holds that such a status is not
necessary for DNF to be held vicariously liable for MNS’s
alleged actions. But because this argument was expressly
abandoned, I would hold that the district court’s grant of
DNF’s motion to dismiss should be affirmed.

34a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
No. 3:17–cv–00777–HZ

Jillian MCADORY, Plaintiff,
v.
M.N.S. & ASSOCIATES, and DNF ASSOCIATES,
LLC, foreign limited liability companies, Defendants.
Signed: March 11, 2018

OPINION & ORDER
HERNANDEZ, United States District Judge.
Plaintiff Jillian McAdory brings this Fair Debt Collection Practices Act (FDCPA) action against Defendants
M.N.S. & Associates and DNF Associates, LLC, contending that M.N.S.’s conduct in attempting to collect a consumer debt from Plaintiff violated various provisions of
the FDCPA, 15 U.S.C. §§ 1692–1692p, and that DNF is
vicariously liable for M.N.S.’s actions. In a November 3,
2017 Opinion & Order, I granted DNF’s motion to dismiss
after concluding that as a matter of law, DNF was not a
“debt collector” as defined by the FDCPA. McAdory v.
M.N.S. & Assocs., No. 3:17–cv–00777–HZ, 2017 WL
5071263 (D. Or. Nov. 3, 2017), ECF 27.
Plaintiff moves for leave to amend, contending that
facts now asserted in her Proposed Second Amended

35a
Complaint (PSAC) establish that DNF is a debt collector.
I construe the motion as a motion for reconsideration and
I deny it.
I. NATURE OF THE MOTION & STANDARDS
DNF’s motion to dismiss contended that DNF could
not be a debt collector as defined by statute and alternatively, even if it could, Plaintiff failed to plausibly allege
that DNF was a debt collector. See id. at *1, *2 (noting the
two separate arguments made by DNF). I made clear that
I agreed with Defendant on its first argument, meaning
that the issue was not the plausibility of the claim based
on the facts alleged against DNF but was the viability of
the claim as a matter of law. Id. at *1, *4. I expressly declined to reach DNF’s alternative argument based on the
sufficiency of the facts alleged. Id.
In granting DNF’s motion to dismiss, I neglected to
expressly state that the claim against DNF was dismissed
with prejudice. However, I also did not give Plaintiff leave
to amend. The Opinion’s discussion of the issue presented,
the analysis upon which the conclusion was based, and my
express statement that I was not considering DNF’s alternative argument directed to the adequacy of the factual
allegations because I agreed with DNF that as a matter
of law a debt purchaser is not a debt collector under the
FDCPA’s “principal purpose” definition of debt collector,
should have made clear to the parties that dismissal of the
claim with prejudice was intended. Moreover, “a dismissal
for failure to state a claim under Rule 12(b)(6) is presumed
. . . to be rendered with prejudice.” McLean v. United
States, 566 F.3d 391, 396 (4th Cir. 2009). Given that the
dismissal of DNF was with prejudice, Plaintiff’s current
motion is more appropriately considered a motion for reconsideration rather than a motion for leave to amend.

36a
Reconsideration is an “extraordinary remedy, to be
used sparingly in the interests of finality and conservation
of judicial resources.” Kona Enters., Inc. v. Estate of
Bishop, 229 F.3d 877, 890 (9th Cir. 2000). Federal Rule of
Civil Procedure 54(b) allows a district court to revise at
any time “any order or other decision, however designated,” that does not fully resolve all the claims for all of
the parties. Fed. R. Civ. P. 54(b)1; see also Lyden v. Nike
Inc., No. 3:13–cv–00662–HZ, 2014 WL 4631206, at *1–2
(D. Or. Sept. 15, 2014) (setting forth standards for reconsideration under Rule 54(b)).
A motion for reconsideration can be granted if the
court (1) is presented with new evidence, (2) committed
clear error or the first decision was manifestly unjust, or
(3) is aware of an intervening change in law. Sch. Dist. No
1J v. ACandS, Inc. 5 F.3d 1255, 1263 (9th Cir. 1993);
Transp. Credit Serv. Ass’n v. Systran Fin. Servs. Corp.,
No. CIV. 03–1342–MO, 2004 WL 1920799, at *1 (D. Or.
Aug. 26, 2004); see also Lyden, 2014 WL 4631206, at *1
(applying a similar four-factor analysis to a presumptive
Rule 54(b) motion for reconsideration, and collecting
cases). Motions for reconsideration are generally disfavored, and may not be used to present new arguments or
evidence that could have been raised earlier. See Fuller v.
M.G. Jewelry, 950 F.2d 1437, 1442 (9th Cir. 1991) (trial
court did not abuse its discretion in denying motion for
reconsideration when moving party presented no arguments which the court had not already considered); see
also Sam v. Deutsche Bank Nat. Trust Co., No. 03:13–cv–
01521–MO, 2013 WL 6817888, at *2 (D. Or. Dec. 23, 2013)

1
Because the November 3, 2017 Opinion resolved only the claim
against DNF, the claim against M.N.S. is still pending and thus, the
Opinion did not resolve “all claims for all of the parties.”

37a
(a party asking for reconsideration must show a “legitimate basis for reconsideration, meaning something other
than re-raising arguments previously made or asserting
new legal theories or new facts which could have been presented before the initial hearing”).
II. DISCUSSION
Plaintiff’s PSAC presents facts not asserted in the
First Amended Complaint. A comparison of the two
pleadings reveals that the new facts are contained in Paragraphs 7 and 8 of the PSAC. In Paragraph 7, Plaintiff
alleges that if the third parties hired by DNF to collect
the debts owned by DNF are unsuccessful in their collection efforts, DNF files collection lawsuits against the
debtors. PSAC ¶ 7, Pl.’s Mot. to Amend, Ex. A, ECF 29–
1. Plaintiff alleges that DNF has filed at least forty-seven
such lawsuits against Oregon consumers in Oregon state
courts. Id. In Paragraph 8, Plaintiff alleges that DNF is
licensed as a debt collection agency in multiple states. An
attachment to the PSAC shows such licenses in seven
states. PSAC, Ex. 2, ECF 29–3.
Plaintiff provides no basis for why the facts in Paragraph 8 of the PSAC were omitted from her Complaint
and First Amended Complaint. Plaintiff fails to explain
how this is “new evidence” that was previously unavailable. Thus, it is not a proper basis for reconsideration.
Even if I consider it, however, it does not detract from
the analysis in my November 3, 2017 Opinion. The heart
of my discussion was that debt purchasing companies who
rely on third parties to collect on the purchased debts are
not debt collectors under the “principal purpose” prong of
the definition of debt collector as provided in 15 U.S.C.
§ 1692a(6). McAdory, 2017 WL 5071263, at *3. This is be-

38a
cause the statutory definition requiring that debt collection be the entity’s principal purpose means that the debt
collection be the most important or most influential purpose that the entity has. Id. As I explained, the “fact that
a business benefits from the collection of debt by an entirely separate third party does not necessarily make the
principal purpose of that business the collection of those
debts.” Id.
My focus was on the language of the federal statute.
As Defendant explains in responding to Plaintiff’s motion,
certain states require debt buyers to obtain a debt collection license. In Illinois, for example, debt buyers are expressly subject to the debt collection statutes. 225 Ill.
Comp. Stat. § 425/2 (defining “debt buyer” as “a person or
entity that is engaged in the business of purchasing delinquent or charged-off consumer loans or consumer credit
accounts or other delinquent consumer debt for collection
purposes, whether it collects the debt itself or hires a
third-party for collection or an attorney-at-law for litigation in order to collect such debt”); § 425/8.5 (explicitly
providing that a “debt buyer shall be subject to all of the
terms, conditions, and requirements of this Act, . . . .”). In
Kansas, debt buyers must obtain a license as a “supervised lender” before “taking assignments of and directly
and indirectly, including through the use of servicing contracts or otherwise, undertaking collection of payments
from debtors arising from supervised loans[.]” Kan. Stat.
Ann. §§ 16a–1–301(45), 16a–2–301. Because other state
laws are ambiguous as to whether licenses are required
for debt buyers as opposed to debt collectors, DNF and
similarly situated companies find it prudent to obtain licenses in those states as well.
DNF’s seven state “debt collector” licenses do not affect DNF’s status as a debt collector under federal law.

39a
That certain state statutes expressly subject debt buyers
to their consumer debt regulatory schemes does not impact the analysis under the completely distinct federal
definitions. Thus, even if I consider the fact that DNF is
licensed as a debt collector in several states, it does not
justify reconsidering my prior conclusion.
The allegations in Paragraph 7 are that DNF has filed
at least forty-seven debt collection lawsuits against Oregon consumers in Oregon state courts. PSAC ¶ 7. Attached as an exhibit to the PSAC is a list of the cases, beginning with one filed July 27, 2017 and continuing
through November 20, 2017. PSAC, Ex. 1, Pl’s Mot. to
Amend, Ex. A, ECF 29–2. Each one shows DNF as the
plaintiff. Id. The First Amended Complaint was filed July
14, 2017. ECF 16. Thus, because the first of the cited lawsuits was not filed until July 27, 2017, the information
about the lawsuits was not available to Plaintiff at the time
the First Amended Complaint was filed. Plaintiff did
bring the existence of at least one lawsuit to the Court’s
attention in oral argument. However, because those facts
were not alleged in the pleading to which DNF’s motion
to dismiss was directed, I did not address them in the November 3, 2017 Opinion.
The new facts do not alter my prior conclusion. In my
November 3, 2017 Opinion, I explained that a debt purchaser’s hiring of a third party to collect on a debt does
not make debt collection the principal purpose of the purchaser entity. McAdory, 2017 WL 5071263, at *3. I further explained that the FDCPA’s statutory proscriptions
are directed to “interactions” between the debtor and the
debt collector. Id. Because of the statute’s focus, I concluded that the language of the statute offered “little to
suggest” that a company which purchases debt and then

40a
contracts with a third party for actual collection activities
was considered by Congress to be debt collector. Id.
Here, the lawsuits filed in an effort to collect on the
debts purchased and owned by DNF are just a different
form of collection activity which DNF hires third party attorneys to perform. While the lawsuits are brought in
DNF’s name because it is the owner of the debt, DNF itself is not “interacting” with the debtor because it is not
executing the litigation activities. Thus, this new evidence
provides no basis for altering my prior conclusion.2
The cases relied on by Plaintiff are distinguishable. In
Heintz v. Jenkins, 514 U.S. 291, 297 (1995), the Supreme
Court held that litigation to collect a debt is collection activity under the FDCPA. But, in that case, the FDCPA
claim was brought directly against the attorney who had
filed the lawsuit on behalf of the debt owner. The claim
was not brought against the debt owner itself. Id. at 293
(debt was owed to bank which hired law firm to sue debtor
in state court; during litigation, law firm attorney wrote a
letter to debtor’s attorney which debtor alleged violated
the FDCPA by falsely representing the amount owed by
debtor; debtor then sued lawyer, not debt owner). While
Heintz stands for the proposition that litigation activity
may be subject to suit under the FDCPA, it says nothing
about whether a debt owner which hires an attorney to

2
Additionally, even if I were to consider the facts relevant to the
analysis, I note that these collection lawsuits were all filed after
M.N.S. interacted with Plaintiff to collect her debt, after she paid the
debt, and after this lawsuit was filed. Thus, at best, the evidence of
collection lawsuits shows that DNF may now be a debt collector but
it does not show that it was a debt collector at the time the claims in
this case arose.

41a
conduct the litigation is itself a debt collector under the
statute.
In Bradshaw v. Hilco Receivables, LLC, 765 F. Supp.
2d 719 (D. Md. 2011), the defendant had purchased a defaulted debt and then filed suit in state court to collect on
that debt. The plaintiffs sued in federal court under the
FDCPA, contending that in filing suit against them in
state court, the defendant acted as a “collection agency”
and because it was not licensed as such under Maryland
law, the defendant violated both Maryland law and the
FDCPA. Id. at 722–23. The court concluded that it was
“clear that Hilco is a debt collector within the meaning of
15 U.S.C. § 1692a(6) and has engaged in collection activity
as a result of its initiation of state court lawsuits brought
against Bradshaw and the class members.” Id. at 725.
In support, the Bradshaw court first cited to Heintz,
which, as explained above, is relevant only for the proposition that litigation is collection activity under the
FDCPA. It is not support for the Bradshaw court’s conclusion that the debt purchaser is a debt collector. The
Bradshaw court also cited a Fourth Circuit case which involved facts similar to those in Heintz because the debt
owner, Discover Bank, was not a defendant. Sayyed v.
Wolpoff & Abramson, 485 F.3d 226, 228 (4th Cir. 2007).
Instead, the FDCPA claim was brought against the law
firm which the bank had retained to pursue an action
against the debtor.
Lastly, the Bradshaw court cited to an Eleventh Circuit case which concerned the actions of the defendant
Unifund CCR Partners in collecting a debt. LeBlanc v.
Unifund CCR Partners, 601 F.3d 1185 (11th Cir. 2010).
With no analysis, the court, citing the “principal purpose”
definition of debt collector under the FDCPA, wrote that

42a
“Unifund is a general partnership organization incorporated under the laws of Ohio and is in the business of purchasing and collecting consumer debt. As such, Unifund is
a ‘debt collector’ for purposes of the FDCPA.” Id. at 1188
& n.3. The facts of the case were that after it purchased
the charged-off debt from a bank, Unifund directly engaged in collection activities such as sending a letter to the
debtor from Unifund’s “Legal Department” concerning
the debt. Id. at 1188. The letter itself identified Unifund
as a debt collector. Id. The debtor did not contact Unifund
which later filed suit against the debtor in state court.
Thus, although the Fourth Circuit did not analyze the
facts, the facts supported the court’s conclusion that Unifund was subject to the FDCPA because it was undisputed that Unifund was a debt collector. Id. at 1193. Given
that Unifund itself “interacted” with the debtor before filing a lawsuit, and given that Unifund’s letter affirmatively
stated it was a debt collector, the facts are distinguishable
from those in Bradshaw and thus, Bradshaw’s reliance on
LeBlanc is misplaced. None of the cases Bradshaw relies
on supports its conclusion that a debt purchaser which has
itself taken no affirmative conduct in attempting to collect
a debt, including in its litigation activities, is a debt collector under the FDCPA. Thus, Bradshaw is not persuasive
authority.
Fox v. Citicorp Credit Services., Inc., a 1994 Ninth
Circuit case decided before Heintz, is also distinguishable. 15 F.3d 1507 (9th Cir. 1994). In that case, the Ninth
Circuit concluded, foreshadowing the conclusion reached
by the Supreme Court in Heintz, that litigation activity by
an attorney is actionable under the FDCPA. Id. at 1511–
13 (concluding that an attorney who regularly collected or
attempted to collect debts owed or due another, including
by “purely legal” activity such as filing a writ of garnishment, was a debt collector under the FDCPA). The Fox

43a
court went on to reject the defendant’s argument that it
could not be vicariously liable for the attorney’s conduct.
Id. at 1516. Plaintiff contends that Fox demonstrates
DNF’s liability in the instant case because just as the defendant in Fox was the named plaintiff in the underlying
state court collection litigation, DNF is the named plaintiff in the underlying state court collection lawsuits here.
And, the argument continues, just as the defendant in Fox
was vicariously liable for the attorney’s conduct, DNF
must be found to be an appropriate defendant in the
FDCPA claims here.
Plaintiff fails to acknowledge that the facts in Fox are
distinguishable. There, Citibank was the debt owner. It
“referred the matter for collection to Citicorp Credit Services” which then hired the attorney who allegedly violated the FDCPA by filing a writ of garnishment against
the debtors in the wrong venue. Id. 1510. Before the attorney was involved, however, a Citicorp employee directly engaged in debt collection activity by repeatedly
contacting the debtor about the debt. Id. Even after Citicorp instructed the attorney to proceed with the garnishment, but before the attorney had done so, Citicorp was
still making contact with the debtors. Id. It is unclear if
ownership of the debt transferred from Citibank to Citicorp when Citibank “referred the matter for collection.”
Either way, the facts show that Citicorp itself engaged in
collection activity and interacted with the debtor. In Fox,
even assuming that Citicorp was a debt buyer, its own
debt collection conduct apparently made it a debt collector
and allowed for vicarious liability for the conduct of its attorney. Because there are no facts that DNF itself has
participated in any collection efforts, it is not similarly situated to the defendant in Fox. Fox is not on point.

44a
Finally, Plaintiff relies on a recent decision by the
Northern District of Indiana which found a triable issue
of fact as to whether a debt buyer had “debt collection” as
the principal purpose of its business when the buyer (1)
purchased and owned defaulted debt, (2) had no employees, (3) had a written agreement and power of attorney
with a debt collector collection agency, (4) had filed thousands of collection lawsuits in its name, (5) had described
the general character of its business as “consumer debt
collection” in an application for registration in Massachusetts, and which (6) the Massachusetts Supreme Court
had determined obtained at least 99% of its gross revenue
from collecting on unpaid consumer debt, had “debt collection” as the principal purpose of its business. Mitchell
v. LVNV Funding, LLC, No. 2:12–cv–533–TLS, 2017 WL
6406594, at *6 (D. Or. Dec. 15, 2017).
The Court in Mitchell concluded that the “principal
purpose” determination was an issue of fact for the jury.
While I agree that in some contexts, this might be a jury
question, my analysis, based on the FDCPA’s statutory
language, resolves the question in this case as a matter of
law. Plaintiff’s “new evidence” exposes no interaction between DNF and a debtor. DNF continues to hire third
parties, whether they be collection agencies or attorneys,
to conduct collection activities up to and including litigation. As a result, nothing in my original analysis has
changed. The fact that DNF “benefits from the collection
of a debt by an entirely separate third party does not necessarily make the principal purpose of [DNF’s] business
the collection of those debts.” McAdory, 2017 WL
5071263, at *3. And, given the lack of interaction between
DNF and the consumer, “there is little to suggest that a
company which only purchases debt and then contracts
with a third party for all actual collection activity was considered by Congress” to be a debt collector. Id.

45a
Plaintiff’s new evidence does not warrant a change in
my prior conclusion.
CONCLUSION
Plaintiff’s motion to amend [29], construed as a motion
for reconsideration, is denied.
IT IS SO ORDERED.

46a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON,
PORTLAND DIVISION
No. 3:17–cv–00777–HZ

Jillian MCADORY, an Individual Residing in
Multnomah County, Plaintiff,
v.
M.N.S. & ASSOCIATES, LLC, and DNF ASSOCIATES, LLC, foreign limited liability companies,
Defendants.
Signed: November 3, 2017

OPINION & ORDER
HERNANDEZ, United States District Judge.
In this Fair Debt Collection Practices action, Defendant DNF Associates, LLC moves to dismiss Plaintiff Jillian McAdory’s Amended Complaint, arguing that (1)
DNF cannot be a “debt collector” as defined by the Fair
Debt Collection Practices Act, 15 U.S.C. §§ 1692–1692p
(“FDCPA”), and (2) even if DNF can be a “debt collector”
under the statute, Plaintiff failed to plausibly allege that
DNF is a “debt collector.” Because I agree with DNF’s
first argument, I grant DNF’s motion.

47a
I. BACKGROUND
The issue at hand revolves around a consumer debt
Plaintiff incurred with Kay Jewelers, a non-party, which
Kay Jewelers subsequently sold to DNF. Am. Compl.
¶¶ 3, 8, ECF 16. Plaintiff alleges that DNF is vicariously
liable for allegedly illegal debt collection activities taken
by M.N.S. Id. at ¶ 20. The following facts are taken from
Plaintiff’s First Amended Complaint.
In late November 2016, Plaintiff first learned of DNF
in a letter sent to her by a non-party company called First
Choice Assets, LLC. Id. at ¶ 9. The letter stated that
Plaintiff “owed a debt to DNF that originated with Kay
Jewelers.” Id. Because Plaintiff had never heard of DNF,
she ignored the letter. Id. On February 24, 2017, Plaintiff
received a voice message that did not identify the caller
nor reference any debt, instead stating the call was in regards to “asset verification.” Id. at ¶ 9. The message
scared Plaintiff into returning the call, during which
Plaintiff spoke with someone who identified himself as
M.N.S. agent Michael Shaw. Id. at ¶ 13. Shaw implied he
was a lawyer and indicated that Plaintiff was about to be
sued for unpaid debt. Id.
In later calls and emails with M.N.S., Plaintiff agreed
to pay the debt. Id. at ¶¶ 14-18. Then, in May 2017, Plaintiff filed this action, alleging that M.N.S. had violated multiple provisions of the FDCPA. Id. at ¶ 22. Furthermore,
Plaintiff alleges that DNF was itself a debt collector and
was vicariously liable for M.N.S.’s violations of the statute. Id. at ¶ 20. Plaintiff alleges that DNF purchases defaulted consumer debts, and then “contracts with a myriad of other physical debt collectors across the country,”
supplying information necessary to facilitate the collection of those debts. Id. at ¶ 6. Plaintiff further alleges that
the third parties “make contact with alleged debtors, in

48a
DNF’s name, and at DNF’s direction,” operating within
parameters set by DNF. Id. In response, DNF moves to
dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6), arguing that it cannot be held vicariously liable
as DNF does not meet the statutory definition of “debt
collector.”
II. STANDARDS
A motion to dismiss for failure to state a claim may be
granted only when there is no cognizable legal theory to
support the claim or when the complaint lacks sufficient
factual allegations to state a facially plausible claim for relief. Shroyer v. New Cingular Wireless Servs., Inc., 622
F.3d 1035, 1041 (9th Cir. 2010). In evaluating the sufficiency of a complaint’s factual allegations, the court must
accept all material facts alleged in the complaint as true
and construe them in the light most favorable to the nonmoving party. Wilson v. Hewlett-Packard Co., 668 F.3d
1136, 1140 (9th Cir. 2012). However, the court need not
accept unsupported conclusory allegations as truthful.
Holden v. Hagopian, 978 F.2d 1115, 1121 (9th Cir. 1992);
see also Warren v. Fox Family Worldwide, Inc., 328 F.3d
1136, 1139 (9th Cir. 2003) (“we do not necessarily assume
the truth of legal conclusions merely because they are cast
in the form of factual allegations”) (internal quotation
marks and alterations omitted).
III. DISCUSSION
The issues raised in Defendant’s motion are (1)
whether a debt purchaser such as DNF can possibly meet
the definition of “debt collector” under the FDCPA, 15
U.S.C. § 1692a(6), and (2) if it can, did Plaintiff allege sufficient facts or actions taken by DNF to plausibly allege
that DNF meets the statutory definition of “debt collector.” DNF argues that a debt purchaser who merely buys

49a
defaulted accounts and takes no affirmative action to collect on said debt can never meet the statutory definition
of “debt collector.” Plaintiff counters that DNF does meet
the statutory definition of “debt collector” as the principal
purpose of DNF’s business is “the acquisition and subsequent collection of defaulted debts.” Pl.’s Resp. 14, ECF
20.
The FDCPA defines a debt collector at 15 U.S.C.
§ 1692a(6):
The term “debt collector” means any person [1] who
uses any instrumentality of interstate commerce or
the mails in any business the principal purpose of
which is the collection of any debts, or [2] who regularly collects or attempts to collect, directly or indirectly, debts owed or due or asserted to be owed or due
another.
15 U.S.C. § 1692a(6).
Plaintiff alleges that DNF falls within the purview of
the FDCPA under the first of the “debt collector” definitions, alleging that DNF’s principal purpose is the collection of debts.1 DNF argues that it is impossible for a passive debt purchaser such as itself to meet this definition of
“debt collector.”

1
In Plaintiff’s First Amended Complaint, it was unclear that Plaintiff was relying solely on this first definition of “debt collector.” DNF
initially relied heavily on Henson v. Santander, 137 S. Ct. 1718 (2017),
to argue that DNF did not meet the entire statutory definition, including the second definition pertaining to a regular collector of
debts. In her Response, Plaintiff clarified she was relying on only the
first “principal purpose” definition. Any further reliance on Henson
by Defendant is inapposite here, as Henson specifically considers
only the second “regularly collects . . . debts owed or due . . . another”
definition of debt collector. Henson, 137 S. Ct. at 1721.

50a
Some courts have held that an entity must take some
affirmative collection activity or have some interaction
with the indebted consumer to be a business with the
“principal purpose” of debt collection. Kasalo v. Trident
Asset Mgmt., LLC., 53 F. Supp. 3d 1072, 1079 (N.D. Ill.
2014). In Kasalo, a debt purchaser bought the plaintiff’s
defaulted debt and contracted with another business for
collection on that debt. Id. at 1076. That contracted company made all of the collection efforts, including sending
one demand letter that listed the debt purchaser as the
current creditor. Id. In a suit brought against it under the
FDCPA, the defendant debt purchaser moved for summary judgment on all claims, arguing that it did not perform collections and thus did not meet the definition of
“debt collector.” Id. at 1077. The court concluded that although the defendant may have been “a debt collector in
one literal sense of the term,” the FDCPA required that a
business take some “collection activity” to meet the statutory definition of “debt collector.” Id. at 1078-79. The
court found that “[a]n entity that acquires a consumer’s
debt hoping to collect it but that does not have any interaction with the consumer itself does not necessarily undertake activities that fall within this purview.” Id. Noting
that (1) the plaintiff had not alleged that the defendant
had any role in the drafting of the demand letter, and that
(2) the defendant had no contact with the plaintiff, the
court held that the defendant debt purchaser did not meet
the statutory definition of “debt collector.” Id. at 1079.
Similarly, some courts have refused to infer a principal
purpose of debt collection without evidence showing such
a purpose. Gold v. Midland Credit Mgmt., Inc., 82 F.
Supp. 3d 1064, 1071 (N.D. Cal. 2015). In Gold, the plaintiff
owed a defaulted debt that the defendant bought and then
referred to its closely tied debt collection affiliate. Id. at
1070. The debt purchaser defendant moved for summary

51a
judgment, arguing that it did not meet the definition of a
“debt collector” under the FDCPA as it had no employees
and took no action to collect on any debt. Id. The court
noted that the plaintiff offered no evidence to suggest that
the defendant’s business was debt collection, and that instead the “[p]laintiff would have the Court fill in the gap
with an inference that because [the defendant] is in the
business of acquiring defaulted debts, it must therefore be
in the business of collecting on those debts.” Id. at 1071.
Finding that “[i]n the absence of evidence showing a purpose to collect on those debts, [p]laintiff’s legal arguments
[were] insufficient to create a triable issue of fact,” the
court held that the debt purchaser did not have the principal purpose of collecting debts and thus was not a “debt
collector.” Id.
Here, DNF argues that this Court should follow the
interpretation of the courts in Kasalo and Gold and dismiss the claims against DNF as DNF makes no active attempts to collect on any debt. DNF argues that Plaintiff
does not allege that “DNF contacts debtors on the telephone, communicates with debtors by letter or takes any
action to collect[ ] on the accounts it owns in any manner.”
Def.’s Mot. Dismiss (“DNF Mot.”) 11, ECF 18. Thus, like
the defendants in Kasalo and Gold who had no interaction
with any consumer, DNF merely contracted with a third
party and took no action themselves. Just like the defendant in Kasalo who was listed as the current creditor in a
letter sent to the plaintiff by the third party collector,
DNF was listed as the current creditor in a letter and
nothing more. DNF in effect argues that to find it a “debt
collector” under the statute, the Court would have to infer
that DNF’s principal purpose was debt collection, which
the Gold court found inappropriate.

52a
I find DNF’s arguments persuasive. The courts in
Gold and Kasalo present the most straightforward reasoning in interpreting the “principal purpose” definition
of debt collector at issue here. Debt purchasing companies
like DNF who have no interactions with debtors and
merely contract with third parties to collect on the debts
they have purchased simply do not have the principal purpose of collecting debts. Therefore these companies must
fall outside the purview of the FDCPA.
This conclusion is grounded in the plain language of
the statute. 15 U.S.C. § 1692a(6) states that a business is
a debt collector under the FDCPA if it is a “business the
principal purpose of which is the collection of any debts.”
“Principal,” in relevant part, is defined as “most important, consequential, or influential.” Webster’s Third
New Int’l Dictionary of the English Language Unabridged 1802 (2002). As the court in Kasalo noted, a debt
purchasing company may be a debt collector in the literal
sense that it purchases debt for the purpose of making
money by hiring a third party to collect on that debt. However, this activity doesn’t comport with the statutory definition requiring that “collection” be the most important
or influential purpose that the company has. The fact that
a business benefits from the collection of debt by an entirely separate third party does not necessarily make the
principal purpose of that business the collection of those
debts.
Furthermore, one of the stated purposes of the
FDCPA is “ ‘to eliminate abusive debt collection practices
by debt collectors.’ ” Kasalo, 53 F. Supp. 3d at 1078 (quoting 15 U.S.C. § 1692(e)). When looking at the various activities punished under the FDCPA, it becomes clear that
what Congress was concerned with, and intended to regulate, was the interaction between a debt collector and a

53a
consumer. See 15 U.S.C. § 1692c (governing communication between a consumer and a debt collector in connection with debt collection); § 1692d (forbidding a debt collector from engaging in harassment or abuse of any person in connection with an attempt to collect a debt, including use or threat of use of violence or profane language);
§ 1692e (forbidding the use of “any false, deceptive, or
misleading representation or means in connection with
the collection of any debt”); § 1692f (prohibiting certain
unfair practices in the communication with any person in
connection with the collection of any debt). See also Jerman v. Carlisle, McNellie, Rini, Kramer & Ulrich LPA,
559 U.S. 573, 577 (2010) (“The [FDCPA] regulates interactions between consumer debtors and debt collector[s]. . . .”) (internal quotations omitted). Given this,
there is little to suggest that a company which only purchases debt and then contracts with a third party for all
actual collection activity was considered by Congress
when it was drafting the FDCPA.
The cases cited by Plaintiff are not persuasive for two
reasons. First, many of these cases conflate the two definitions of debt collector to some degree, and do not expressly analyze the “principal purpose” definition at issue
here. For example, in Pollice v. Nat’l Tax Funding, L.P.,
225 F.3d 379, 403-04 (3rd Cir. 2000), the court failed to distinguish between the two definitions and thus its analysis
is not directly applicable here. See also Barbato v. Greystone Alliance LLC, No. 3:13-CV-2748, 2017 WL 1193731
at *10 (M.D. Penn. Mar. 30, 2017) (failing to distinguish
between the two definitions and applying an exception inapplicable to the “principal purpose” definition), recon.
denied, No. 3:13-2748, 2017 WL 4698079 (M.D. Penn. Oct.
19, 2017). Moreover, these cases rely on the debt collector
exception in § 1692a(6)(F) for those who obtain a debt in

54a
default.2 But a close reading of the statute shows that this
exception applies only to those who are debt collectors under the second “regularly collects” definition of debt collector, as the exception requires the collection of a debt
owed or due another. Because that second definition is not
at issue here, the exception is not relevant and the cases
relying on it are inapplicable.
Second, some courts have used the statutory definition
of creditor as part of their analysis of whether someone is
a “debt collector,” noting that under the statutory scheme,
“creditor” and “debt collector” are mutually exclusive.3
See, e.g., Plummer v. Atlantic Credit & Finance, Inc., 66
F. Supp. 3d 484, 488 (S.D.N.Y. 2014) (“For purposes of applying the [FDCPA] to a particular debt, these two categories—debt collectors and creditors—are mutually exclusive.”) (citing Schlosser v. Fairbanks Capital Corp.,
323 F.3d 534, 536 (7th Cir. 2003)); Polanco v. NCO Portfolio Mgmt., 132 F. Supp. 3d 567, 579 (S.D.N.Y. 2015)
(“[T]he definition of ‘debt collector’ excludes ‘creditors,’
. . . .”). They reason that if the entity is not a creditor, it
must be a debt collector. In determining that the entity is
not a creditor, they rely on § 1692a(4) which provides that
an entity is not a creditor when the entity receives a debt
in default (1) by assignment or transfer and (2) for the
The FDCPA exempts certain people from the definition of “debt
collector,” including: “(F) any person collecting or attempting to collect any debt owed or due or asserted to be owed or due another to
the extent such activity . . . (ii) concerns a debt which was originated
by such a person; [or] (iii) concerns a debt which was not in default at
the time it was obtained by such a person.” 15 U.S.C. § 1692a(6)(F).
2

3
The FDCPA defines a creditor as “any person who offers or extends credit creating a debt or to whom a debt is owed, but does not
include any person to the extent that he receives an assignment or
transfer of a debt in default solely for the purpose of facilitating collection of such debt for another.” 15 U.S.C. § 1692a(4).

55a
purpose of facilitating collection of such debt for another.
DNF acquired the debt for itself and thus did not obtain
it to facilitate the collection of the debt for another. Therefore, this line of cases is unpersuasive as the statutory sections relied upon do not apply here.
In summary, I conclude that DNF does not meet the
statutory definition of “debt collector” under the FDCPA
as it is not a business whose principal purpose is the collection of debts. Accordingly, I need not address DNF’s
alternative argument directed to the adequacy of its factual allegations.
CONCLUSION
Defendant DNF’s motion to dismiss [18] is granted.
IT IS SO ORDERED.

56a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35923
D.C. No. 3:17-cv-00777-HZ
District of Oregon, Portland
Jillian MCADORY, Plaintiff-Appellant,
v.
M.N.S. & ASSOCIATES, LLC,
foreign limited liability company, Defendant,
and
DNF ASSOCIATES, LLC, foreign limited liability company, Defendant-Appellee.
Filed: April 24, 2020
Before: FARRIS, BEA, and CHRISTEN, Circuit
Judges.
ORDER
The full court has been advised of the petition for rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
Judge Christen votes to deny the petition for rehearing en banc, and Judge Farris so recommends. Judge Bea
recommends granting the petition for rehearing en banc.
The petition for rehearing en banc is DENIED.

